TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Invoice Audit of the Management of
                      Seized and Forfeited Assets Contract –
                                TIRNO-05-C-00010



                                        January 11, 2007

                              Reference Number: 2007-10-025




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          January 11, 2007


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Invoice Audit of the Management of Seized and
                             Forfeited Assets Contract – TIRNO-05-C-00010
                             (Audit # 200610037)

 This report presents the results of our review of the Internal Revenue Service’s (IRS)
 Management of Seized and Forfeited Assets Contract - TIRNO-05-C-00010. The overall
 objective of this review was to determine whether selected invoices submitted and paid under
 contract number TIRNO-05-C-00010 were appropriate and in accordance with the contract’s
 terms and conditions.

 Impact on the Taxpayer
 Contract expenditures represent a significant outlay of IRS funds. The Treasury Inspector
 General for Tax Administration has made a commitment to perform audits of these expenditures.
 To the extent our reviews assist the IRS in identifying and recovering inaccurate, unsupported,
 and unallowable charges, contract expenditures are reduced and taxpayer funds are saved.

 Synopsis
 Our review identified questionable charges totaling $21,297.88. The questionable charges
 consisted of unallowable, unsupported, and unreasonable costs. We provided details of these
 charges to the contractor and the IRS.
 As part of this audit, we also interviewed the Contracting Officer, the Contracting Officer’s
 Technical Representative, and a sample of field coordinators to determine whether the
 contractor’s performance was satisfactory. Based on these limited auditing procedures, nothing
                    Invoice Audit of the Management of Seized and Forfeited
                              Assets Contract – TIRNO-05-C-00010



came to our attention that would lead us to believe there were significant problems with the
deliverables associated with the contract.

Recommendations
We recommended the Director, Procurement, require the appropriate Contracting Officer to
(1) review the identified questionable charges of $21,297.88 and initiate any recovery actions
deemed warranted and (2) review all the labor categories to ensure employees meet the
qualifications stipulated in this contract and all appropriate labor categories are properly
included.

Response
IRS management agreed with our recommendations. Based on the Contracting Officer’s
research and evaluation of additional supporting documentation provided by the contractor,
$270.10 of the $21,297.88 remained questionable and will be recovered on an upcoming invoice.
To ensure future invoices are properly submitted and paid, the Contracting Officer and the
Contracting Officer’s Technical Representative will review invoices for insufficient supporting
documentation prior to payment. Additionally, the Contracting Officer and the Contracting
Officer’s Technical Representative will review résumés and ensure all contractor employees
meet position qualifications, and the contractor will be required to replace any individuals that
fail to meet the qualifications. Further, the contract was modified to ensure all labor categories
and associated rates were included in the contract. Management’s complete response to the draft
report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs) (Designee), at (202) 622-8500.




                                                                                                 2
                           Invoice Audit of the Management of Seized and Forfeited
                                     Assets Contract – TIRNO-05-C-00010




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Questionable Contract Charges and Invoice Verification Process ...............Page 2
                    Recommendations 1 and 2: ................................................Page 4

          Contract Deliverables Were Acceptable.......................................................Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Outcome Measure ................................................................Page 10
          Appendix V – Management’s Response to the Draft Report .......................Page 11
       Invoice Audit of the Management of Seized and Forfeited
                 Assets Contract – TIRNO-05-C-00010




                   Abbreviations

CO           Contracting Officer
COTR         Contracting Officer’s Technical Representative
IRS          Internal Revenue Service
                        Invoice Audit of the Management of Seized and Forfeited
                                  Assets Contract – TIRNO-05-C-00010




                                             Background

In March 2005, the Internal Revenue Service (IRS) awarded contract number
TIRNO-05-C-00010, a labor-hour contract.1 The IRS Criminal Investigation function is
responsible for the management, administration, organization, and tracking of all seized and/or
forfeited assets. This contract provides the support services, including the personnel, equipment,
and incidental items, necessary for the management of the seized and forfeited assets program.
The contract was awarded for a base period from March through September 30, 2005. The
contract included four option periods that could carry the term of the contract through
September 30, 2009. According to the Request Tracking System,2 as of May 2006, the IRS had
approved approximately $5.6 million for payment to the contractor.
Because contract expenditures represent a significant outlay of IRS funds, the Treasury Inspector
General for Tax Administration made a commitment to perform audits of these expenditures.
This audit was designed to determine whether amounts paid by the IRS under this contract were
accurate, supported, and allowable through a review of the contractor invoices and supporting
documentation.
This audit was performed at the Office of Procurement in the Office of the Agency-Wide Shared
Services in Oxon Hill, Maryland, and the contractor’s facility in Greenbelt, Maryland, during the
period May through October 2006. Opinions expressed in this report pertain only to the tasks
and invoices included in our sample. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




1
  A labor-hour contract provides for acquiring direct labor hours at specified fixed hourly rates that include wages,
overhead, general and administrative expenses, and profit.
2
  The Request Tracking System is a web-based application that allows IRS personnel to prepare, approve, fund, and
track requests for the delivery of goods and services. The System also allows for electronic receipt and acceptance
of items delivered and provides an interface with the Integrated Financial System (the IRS financial accounting
system) for payment processing.
                                                                                                              Page 1
                     lnvoice Audit of the Management of Seized and Forfeited
                              Assets Contract - TIRNO-05-C-00070




                                  Results of Review

Questionable Contract Charges and lnvoice Verification Process
We examined supporting documentation obtained from the IRS Office of Procurement, as well
as documentation received directly from the contractor, for a judgmental sample of 10 invoices
(see Appendix I for details). The 10 invoices were issued between May 2005 and April 2006 and
involved approximately $2.3 million iq IRS payments. The primary expenses claimed on the
invoices were labor costs, subcontractor costs, and travel costs.

Questionable contract charcres
We identified questionable charges of $21,297.88, as shown in Figure 1. We provided details of
these charges to the contractor and the IRS.
                      Figure 1: Schedule of Questionable Charges
                              Questioned Activity                 Questionable
                                                                    Charges
                                                              I

                     Unallowable Labor                                  $19,708.68
                                                              I

                     Unallowable Travel                                      $98.88
                                                              I

                     Unsupported Travel                                    $638.93
                                                              I

                     Unreasonable Travel                                   $85 1.39
                     Total                                              $21,297.88
                    Source: Treasury Inspector Generalfor Tax Administration analysis
                    of 10 invoices submitted to the IRS.

The unallowable labor charges involved two instances of employees not meeting the
qualifications for the labor category as stipulated in the contract, two labor categories charged on
the invoices that were not part of the contract, and an employee erroneously billed as working on
a holiday. The employees not meeting the qualifications stipulated in the contract were billed for




modification was issued in August 2006 to add the new labor category.
                                                                                             Page 2
                         Invoice Audit of the Management of Seized and Forfeited
                                   Assets Contract – TIRNO-05-C-00010



The unallowable travel charges involved an instance in which meals and incidental expenses
were claimed for a trip that was fewer than 12 hours in duration and other travel costs that
exceeded Federal Government-established per diem rates. The majority of the unsupported
travel charges were questioned because there were no receipts provided to support lodging
expenses and no travel vouchers were provided for mileage reimbursement. Finally, the
unreasonable travel charges involved an instance in which an employee was reimbursed for
travel expenses, including lodging, meals, and incidental expenses, that occurred in the same city
as the employee’s post of duty. In this instance, no prior approval for travel was prepared as
with all other travel charges we reviewed. This type of travel is generally unallowable without
special authorization describing extenuating circumstances for such expenses to be allowable in
the same city as the employee’s duty station.
The Federal Acquisition Regulation3 stipulates a contractor is responsible for accounting for
costs appropriately and for maintaining records, including supporting documentation, adequate to
demonstrate that costs claimed were incurred. The Federal Acquisition Regulation also provides
that costs shall be allowed to the extent they are reasonable, allocable, and allowable under the
Federal Acquisition Regulation. In addition, the contract stipulates the contractor may be
reimbursed for travel costs in accordance with the Federal Travel Regulation.4 The Federal
Travel Regulation provides that an employee is eligible for a travel allowance only when in
travel status for more than 12 hours, receipts should be provided for lodging and any authorized
travel expenses in excess of $75, and per diem is permitted only for employees performing
official travel away from their duty stations.
Invoice verification process
Contracts may be entered into and signed on behalf of the Federal Government only by COs.
COs have the authority to administer or terminate contracts and make related determinations and
findings. They are responsible for ensuring performance of all necessary actions for effective
contracting, ensuring compliance with the terms of the contract, and safeguarding the interests of
the United States in its contractual relationships.
The requesting program office nominates a COTR, who is the CO’s technical expert and
representative in the administration of a contract or task order. Usually, the CO will appoint the
COTR by issuing a signed letter of appointment tailored to meet the needs of each contract. The
CO and the COTR are required to jointly review all appointed duties. IRS guidance includes a
sample letter of appointment which details responsibilities of the COTR. These responsibilities
include reviewing the contractor’s invoices to ensure they reflect accurately the work completed
in accordance with the requirements of the contract, certifying acceptance, and forwarding a
copy of the invoice to the CO.


3
    48 C.F.R. pt 1-53 (2002).
4
    41 C.F.R. Chapter 301 (2005).
                                                                                            Page 3
                        Invoice Audit of the Management of Seized and Forfeited
                                  Assets Contract – TIRNO-05-C-00010



Additionally, IRS guidance provides a reference to the Office of Federal Procurement Policy
A Guide to Best Practices for Contract Administration (the Guide), published in October 1994.
The Guide offers, as a practical technique, that COTRs reviewing vouchers under
cost-reimbursement contracts should review, among other things, contractor time cards to help
assess the reasonableness of direct labor charges. The Guide also contains directions to review
major cost categories, such as subcontractor charges, to again determine the reasonableness of
the claimed costs. Although the Guide does not include a specific reference to labor-hour
contracts, we believe it is reasonable to infer that administration requirements for
cost-reimbursement contracts would also apply to labor-hour contracts.
The COTR is responsible for receipt and acceptance of the invoices. The COTR reviews and
approves the labor hours contained on the invoices and contacts the field coordinators when
necessary to verify the labor hours. Based on discussions with a sample of field coordinators, the
field coordinators are responsible for overseeing and reviewing the contractor employees’ work.
Additionally, the field coordinators approve the timesheets of the contractor’s employees.
However, the COTR does not receive the timesheets, nor do the field coordinators review the
invoices. Additionally, the contractor obtains prior approval for travel from the COTR. The
COTR indicated he or she receives travel receipts to support travel costs for the contractor,5 but
the COTR does not receive documentation to support subcontractor travel.
We did not identify a significant amount of questionable charges on the invoices reviewed,
notwithstanding the incomplete invoice verification process described above. We will continue
to include a review of the IRS’ invoice verification process in future contract invoice audits and,
if warranted, recommend improvements to the process.

Recommendations
Recommendation 1: The Director, Procurement, should ensure the appropriate CO reviews
the identified questionable charges of $21,297.88 and initiates any recovery actions deemed
warranted.
        Management’s Response: Based on the CO’s research and evaluation of additional
        supporting documentation provided by the contractor, $270.10 of the $21,297.88
        remained questionable and will be recovered on an upcoming invoice. To ensure future
        invoices are properly submitted and paid, the CO and the COTR will review invoices for
        insufficient supporting documentation prior to payment.
Recommendation 2: The Director, Procurement, should require the appropriate CO to review
all the labor categories to ensure employees meet the qualifications stipulated in this contract and
all appropriate labor categories are properly included.

5
 Due to the flooding at the 1111 Constitution Avenue building, we were unable to verify the travel receipts the
COTR receives. We obtained all our documentation supporting travel directly from the contractor.
                                                                                                            Page 4
                    Invoice Audit of the Management of Seized and Forfeited
                              Assets Contract – TIRNO-05-C-00010



       Management’s Response: The CO and the COTR will review résumés and ensure
       all contractor employees meet position qualifications, and the contractor will be required
       to replace any individuals that fail to meet the qualifications. Additionally, the contract
       was modified to ensure all labor categories and associated rates were included in the
       contract.

Contract Deliverables Were Acceptable
We interviewed the CO, COTR, and six field coordinators to determine whether the contractor’s
performance and deliverables were acceptable. This contract provided support services,
including personnel, equipment, and incidental expenses, necessary for the management of
seized and forfeited assets. These services included establishing case files for each individual
asset and performing legal research, data analysis, data entry, and general clerical support.
Based on our limited auditing procedures, nothing came to our attention that would lead us to
believe there were significant problems with contractor performance or any of the deliverables
associated with the invoices included in our tests.




                                                                                            Page 5
                        Invoice Audit of the Management of Seized and Forfeited
                                  Assets Contract – TIRNO-05-C-00010



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether selected invoices submitted and
paid under contract number TIRNO-05-C-00010 were appropriate and in accordance with the
contract’s terms and conditions. To accomplish this objective, we:
I.      Analyzed the IRS invoice verification process prior to certifying payment to the
        contractor.
        A. Interviewed the CO and COTR to confirm our understanding of the invoice
           verification process.
        B. Documented invoice processing risks including accuracy, supportability, and
           allowability of invoice charges and concluded as to the overall control environment.
        C. Interviewed IRS personnel involved in the administration of the contract to identify
           any concerns that existed regarding the contractor, its billing practices, or any specific
           invoices.
II.     Verified whether invoice charges submitted by the contractor and paid by the IRS were
        accurate, supported, and allowable.
        A. Identified the universe of invoices from March 2005 (contract inception) through
           May 2006. The universe consisted of 26 invoices, which we reconciled to the IRS
           Request Tracking System.1 We judgmentally selected 10 of the 26 invoices for
           review. The 10 invoices, which were issued between May 2005 and April 2006,
           involved approximately $2.3 million in IRS payments and represented approximately
           42 percent of the total amount paid by the IRS. We believed this sampling method
           would provide sufficient evidence to accomplish our audit objective and would result
           in acceptable management corrective action without the need for precise projection of
           sample results.
             This audit did not include procedures to obtain evidence that computer-processed data
             within the IRS Request Tracking System were valid and reliable. Although used
             during this audit, the data in general were not considered significant to the audit’s
             objective or resultant findings. We used the data within the Request Tracking System

1
  The Request Tracking System is a web-based application that allows IRS personnel to prepare, approve, fund, and
track requests for the delivery of goods and services. The System also allows for electronic receipt and acceptance
of items delivered and provides an interface with the Integrated Financial System (the IRS financial accounting
system) for payment processing.
                                                                                                            Page 6
                   Invoice Audit of the Management of Seized and Forfeited
                             Assets Contract – TIRNO-05-C-00010



          only to reasonably verify the universe from which we selected our sample of
          transactions for substantive testing of their accuracy, supportability, and allowability.
          We concluded and reported on those substantive tests. Therefore, there was no
          adverse effect on the audit as a result of not including the reliability of
          computer-processed data audit procedures.
       B. For the invoices in our sample, obtained supporting documentation from the IRS and
          the contractor and performed the following tests:
          1. Verified the mathematical accuracy of the invoices and supporting
             documentation.
          2. Traced invoice charges to supporting documentation.
          3. Verified whether invoice charges were actually paid by the contractor through
             examination of payroll records and extracts from the contractor’s financial
             records.
          4. Verified whether invoice charges were allowable under the terms and conditions
             of the contract.
III.   Verified through interviews with responsible officials whether the contractor’s
       performance and deliverables were acceptable, as stipulated in the contract.




                                                                                            Page 7
                   Invoice Audit of the Management of Seized and Forfeited
                             Assets Contract – TIRNO-05-C-00010



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs) (Designee)
John R. Wright, Director
Thomas J. Brunetto, Audit Manager
Debra Kisler, Lead Auditor
Joseph F. Cooney, Senior Auditor
Terrey Haley, Senior Auditor




                                                                                        Page 8
                   Invoice Audit of the Management of Seized and Forfeited
                             Assets Contract – TIRNO-05-C-00010



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Criminal Investigation SE:CI
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Director, Procurement OS:A:P
       Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS




                                                                                   Page 9
                    Invoice Audit of the Management of Seized and Forfeited
                              Assets Contract – TIRNO-05-C-00010



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Questioned Costs – Potential; $21,297.88 (see page 2).

Methodology Used to Measure the Reported Benefit:
We examined invoices and supporting documentation obtained from the IRS Office of
Procurement, as well as documentation received directly from the contractor, to verify charges
for a judgmental sample of 10 invoices. We selected our sample from a universe of 26 invoices.
The 10 selected invoices involved approximately $2.3 million in IRS payments.
Our review resulted in the identification of questionable charges of $21,297.88. Specifically,
these charges consisted of $19,708.68 in unallowable labor charges, $98.88 in unallowable travel
charges, $638.93 in unsupported travel charges, and $851.39 in unreasonable travel costs.




                                                                                          Page 10
      Invoice Audit of the Management of Seized and Forfeited
                Assets Contract – TIRNO-05-C-00010



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 11
Invoice Audit of the Management of Seized and Forfeited
          Assets Contract – TIRNO-05-C-00010




                                                     Page 12
Invoice Audit of the Management of Seized and Forfeited
          Assets Contract – TIRNO-05-C-00010




                                                     Page 13
